Audit of USAID’s Participant Training
Activities

Audit Report Number 9-000-04-005-P
September 9, 2004




                    Washington, D.C.
September 9, 2004

MEMORANDUM
FOR:          EGAT/ED, Director, John A. Grayzel

FROM:         IG/A/PA Director, Nathan S. Lokos /s/

SUBJECT:      Audit of USAID’s Participant Training Activities
              (Report No. 9-000-04-005-P)

This memorandum transmits our final audit report on the subject audit. In
finalizing the report, we considered your comments on our draft report and
have included this as Appendix II.

The report contains four recommendations to strengthen USAID’s
management of its participant training activities. In your written comments,
you concurred with these recommendations. Accordingly, management
decisions have been reached on all four recommendations. Moreover, for
Recommendations No. 2, 3 & 4, you identified appropriate actions taken to
address each recommendation, and provided us with documents to evidence
that the actions were taken. Therefore, we consider those recommendations
to be closed upon issuance of this report. Concerning Recommendation No.
1, additional action relating to the requirement for entry of non-returnee
information into SEVIS is pending. Please coordinate final action with
M/MPI.

This capping report summarizes seven individual audits of participant
training activities and makes significant recommendations that for the first
time will result in (a) background checks on USAID participants for security
reasons, (b) full accountability of whereabouts while in the US and, (3)
reimbursement responsibility to USAID if a participant does not return to
their home country to fulfill the home country residency requirement.

I want to express my sincere appreciation for the cooperation and courtesies
extended to my staff during the audit.



                                                                               1
(This page intentionally left blank.)




                                        2
Table of   Summary of Results                                                  5
Contents   Background                                                          6

           Audit Objectives                                                    7

           Audit Findings                                                      7

                  Have USAID missions complied with selected
                  requirements for administering participant training
                  conducted in the United States?                              7

                      Participant Data in TraiNet Was Incomplete
                      Until Fiscal Year 2003                                   8

                  What have been the non-returnee rates for overseas
                  participants who were trained in the United States and did
                  USAID missions take appropriate actions when
                  participants failed to return to their home countries?       8

                      Non-Returnee Rates                                       8

                      USAID Needs a Standardized System
                      To Track Non-Returnees                                   9

                      USAID Should Require That
                      Non-Returnees Repay Training Costs                       11

                  What additional actions should USAID missions take
                  to meet new requirements for selecting, monitoring,
                  and reporting on participants training in the United
                  States?                                                      12

                      Participants Selected for Training in the U.S.
                      Should Undergo Background Checks                         13

           Evaluation of Management Comments                                   14

           Appendix I - Scope and Methodology                                  17

           Appendix II - Management Comments                                   19




                                                                                    3
(This page intentionally left blank.)




                                        4
Summary of   This audit report presents issues regarding the USAID participant training
Results      program under which foreign individuals came to the United States for
             structured learning. These individuals—called participants—were expected to
             return to their home countries and utilize their skills or education to assist in
             development. The issues discussed in this report evolved from seven audits
             conducted in fiscal years 2003 and 2004 at missions in Bulgaria, Dominican
             Republic, Egypt, Mongolia, Nicaragua, Nigeria, and Tanzania.

             In regards to the first audit objective on compliance with administrative
             requirements, the missions generally implemented selected requirements,
             except that not all participants were entered into USAID’s training data base
             (called TraiNet). However, in February 2003, new requirements for real-time
             data entry and data verification in TraiNet became effective and should result
             in better data. (See pages 7-8.)

             With respect to the second objective relating to non-returnee rates and mission
             follow-up, we could not determine USAID-wide non-returnee rates for
             overseas participants trained in the United States due to incomplete data and
             the lack of a tracking system for non-returnees. However, for the seven
             missions audited, the number of participants who did not return to their home
             countries on schedule after training over the past several years was low. (See
             pages 8-9). We did determine that USAID should take three actions relating to
             non-returnees. First, USAID should establish a standardized system for
             tracking and following up on non-returnees (See pages 9-11). Second, USAID
             should require that non-returnees repay the cost of their training. (See pages
             11-12). Third, to offset the loss of valuable training resources, USAID policy
             and procedures should require the issuance of bills for collection to non-
             returnees—a practice which two of the audited missions have already begun.
             (See page 12).

             Concerning the third objective on additional actions related to the new
             requirements for the participant training program, missions should initiate
             background checks on prospective participants planning to come to the U.S.
             One of the seven missions audited had already initiated background checks on
             participants selected for long-term training in the U.S. (See pages 12-14).

             Management concurred with our recommendations and has taken appropriate
             action on three of the four recommendations.          (See pages 14-15).
             Management’s comments are included in their entirety in Appendix II. (See
             page 19).




                                                                                            5
Background
 Background   Each year, USAID’s worldwide participant training programs bring
              approximately 6,000 people to the United States1 with the intention that these
              individuals will return home after training and contribute to their country’s
              development. According to USAID, “participants” may be host country
              residents or foreign nationals taking part in a structured learning activity.
              Participant training is considered as either short-term or long-term (about 9
              months or more) and may include a range of learning activities such as study
              tours, observational tours, conferences, and academic training.

              USAID’s participant trainee data is collected and reported through its Training
              Results and Information Network (TraiNet) database which was developed
              and is maintained and managed by a contractor. USAID’s policies and
              procedures concerning participant training are contained principally in Section
              253 of USAID’s Automated Directives System (ADS 253). It is USAID’s
              Bureau for Economic Growth, Agriculture and Trade, Office of Education
              (EGAT/ED) that is responsible for maintaining ADS 253.

              As a result of homeland security concerns and the recent attacks on the U.S.,
              increased attention is now given to all visitors to the U.S., including those
              involved in participant training activities. In addition, new regulations by the
              U.S. Immigration and Naturalization Service2 and the Department of State
              changed and established more specific procedures for issuing J-1 visas (which
              USAID requires for participant trainees), monitoring exchange visitors, and
              recording various changes in status such as new addresses, changes in training
              courses, etc.

              The U.S. Immigration and Naturalization Service (INS) has also developed its
              own database known as the Student and Exchange Visitor Information System
              (SEVIS). All training sponsors were required to implement SEVIS, which is
              designed to track the status and location of all foreign students in the U.S.—
              including those on the J-1 visas required by USAID.

              The Office of Inspector General scheduled a worldwide audit of participant
              training in its audit plan for fiscal year 2003 and performed audits at seven
              USAID missions in Bulgaria, Dominican Republic, Egypt, Mongolia,
              Nicaragua, Nigeria, and Tanzania. This report summarizes key issues related to


              1
                  Participant training can also be conducted in-country, or in a third country.
              2
                In March 2003, the visa processing responsibilities of the U.S. Immigration and
              Naturalization Service (INS) were transferred to the U.S. Department of Homeland Security’s
              Bureau of Immigration and Customs Enforcement.



                                                                                                       6
                   participant training activities at the above missions, and makes recommendations
                   to strengthen USAID’s participant training program.



Audit Objectives   This worldwide audit was conducted as part of the Office of Inspector
                   General’s fiscal year 2003 audit plan and was designed to answer the
                   following audit objectives.

                   •      Have USAID missions complied with selected requirements for
                          administering participant training conducted in the United States?

                   •      What have been the non-returnee rates for overseas participants
                          who were trained in the United States and did USAID missions
                          take appropriate actions when participants failed to return to
                          their home countries?

                   •      What additional actions should USAID missions take to meet new
                          requirements for selecting, monitoring, and reporting on
                          participants training in the United States?

                   Appendix I contains a discussion of the audit's scope and methodology.


Audit Findings     Have USAID missions complied with selected requirements for
                   administering participant training conducted in the United States?

                   USAID missions generally complied with selected administrative
                   requirements, except that not all participant trainees were entered into
                   USAID’s training database (TraiNet).

                   USAID missions and their partners have implemented selected participant
                   training requirements including: 1) the use of TraiNet as the official database
                   and 2) the following pre-training requirements: a) health and accident
                   coverage insurance (HAC), b) certification of medical eligibility based on
                   medical examinations (applicable to visits of more than 30 days), c)
                   verification of English proficiency, and d) application for and use of J-visas.

                   However, as discussed below, there is one area in which USAID can
                   strengthen the administration of its participant training program.




                                                                                                 7
Participant Data in TraiNet Was
Incomplete Until Fiscal Year 2003

USAID’s Automated Directives System states that the Training Results and
Information Network (TraiNet) is USAID’s official training database for
participant training. Accordingly, it is important that the information in
TraiNet be complete and that it include all participants coming to the U.S. for
training. Nevertheless, at four of the seven missions audited, the information
in TraiNet was incomplete because it did not reflect all participant trainees sent
to the U.S. These omissions occurred because data entry operators were
untrained and input the data infrequently and after-the-fact, and because the data
was based on unverified lists of participants. Consequently, TraiNet did not
reflect all USAID-sponsored participants coming to the U.S. for training. These
issues have been addressed at the missions audited. The issue of infrequent data
input was addressed organization-wide as well when USAID instituted the
requirements for real-time data entry into TraiNet and for data verification—
which are now necessary to process J-1 visas. As a result, we are not making a
recommendation.


What have been the non-returnee rates for overseas participants who
were trained in the United States and did USAID missions take
appropriate actions when participants failed to return to their home
countries?

It was not possible to determine USAID-wide non-returnee rates for overseas
participants trained in the United States due to incomplete data and the lack of
a tracking system for non-returnees. However, for the seven missions audited,
the number of participants who did not return to their home countries on
schedule after training over the past several years was low—approximately
0.52 percent. Moreover, of the five missions audited that had non-returnees,
only one of the missions took an appropriate action to determine whether its
one non-returnee had returned to the home country. Finally, although USAID
reported non-returnees to the U.S. Immigration and Naturalization Service
(INS), it did not have a list of non-returnees or a schedule for further follow-
up on them—primarily due to the absence of a non-returnee tracking system
and lack of formal procedures concerning non-returnees. In many cases, the
USAID-sponsored training for non-returnees equated to a free college
education for the non-returnee at a cost of approximately $20,000 per year to
the U.S. taxpayer.

Non-Returnee Rates

One of the key objectives of USAID’s participant training program is that
participants return to their country after the training and contribute to that



                                                                                8
country’s development. When a participant does not return to his or her
country, USAID’s participant training program, its development objectives,
and the development of that country suffer.

Over approximately the last four years at the seven missions audited, there
were only 28 participants who did not return to their home countries out of an
estimated 5,360 total participants – a rate of 0.52 percent, which we consider
low. However, the actual rate of non-returnees for all USAID participants
over a longer period could be much higher. Calculating this rate was not
possible due to incomplete data in TraiNet (see previous discussion) and
USAID’s lack of a tracking system for non-returnees (addressed in the next
section of this report). The following chart shows the data on non-returnees
from the seven missions audited:


                            Audited Period
                   (Fiscal Years 2000 – mid-2003) a/

                                            Non-
        Countries         Participants      Returnees      Percent

        Bulgaria                569               0            --
        Dominican
          Republic              254               1           0.39
        Egypt                  3,678             18           0.49
        Mongolia                106              5            4.72
        Nicaragua              300 b/             2           0.67
        Nigeria                 253               0            --
        Tanzania               200 b/             2           1.00
           Total:              5,360             28           0.52

       Notes: a/ Audited period varied. Mongolia included fiscal year 1999. Mid-2003
              ranged from May to July 2003.
              b/ These amounts had to be estimated because of irreconcilable differences
              between the mission records and TraiNet.



USAID Needs a Standardized
System to Track Non-Returnees

USAID missions are required to track and follow up on participants that do
not return to their home country. Four of the five missions audited that had
non-returnees did not take appropriate action, primarily because they did not
have effective systems for tracking and following up on non-returnees.
Consequently, USAID is unable to effectively determine whether participants



                                                                                       9
have returned to their home countries and are furthering USAID’s
development objectives, as intended.

As previously stated in this report, one of the key objectives of USAID’s
participant training program is that participants return to their country after the
training and contribute to that country’s development. When a participant
does not return to his or her country, USAID’s participant training program,
its development objectives, and the development of that country suffers.

Accordingly, ADS E253.5.2c requires that: “[a]ll sponsoring units must track
participants for timely return to their workplace or professional setting in their
home countries. Efforts at non-returnee rate reduction must be continuous and
focused…” The ADS also states that missions are responsible for “…tracking
participants’ post-training whereabouts and reporting to [EGAT/ED] if a non-
returnee is back in the country. Sponsoring units or their monitors must report
all non-returnees to [EGAT/ED] in writing. [EGAT/ED] then reports the
participant to the INS office having jurisdiction over the non-returnee’s
training site.” Having an effective system for tracking and following-up on
participants is an essential tool for meeting these requirements.

Of the five missions audited that had non-returnees, only one mission took
appropriate actions to accurately determine whether its one non-returnee had
returned to the home country. The remaining four missions did not take the
appropriate actions because they lacked effective systems for tracking and
following-up on participants, as well as non-returnees.

Such non-returnees represent a significant lost investment to USAID. For
example, available EGAT files covered 200 non-returnees since fiscal year
1992. Of these 200 non-returnees, 159 had received training in the U.S. for
one year or more which equates to over 506 years of USAID-funded training.
At an estimated $20,000 per year—covering college tuition and fees, monthly
maintenance allowance, and other direct costs such as travel—these 506 years
total over $10 million in USAID-funded training. Many of these 159
participants were trained in academic programs leading to bachelor, master,
and doctorate degrees. In fact, the files showed that 34 participants received
as many as six years of USAID–funded training for doctorate degrees in such
fields as computer science, civil engineering, animal science, medicinal
chemistry, and economics. Despite USAID’s investment, these individuals
did not return to their country of origin to participate in that country’s
development, which is the intent of the participant training program.

Moreover, although the total number of non-returnees could not be
determined because of incomplete records, there were definitely more non-
returnees than reflected in the available EGAT records. For example, while
EGAT files indicated only two non-returnees from Tanzania between 1992



                                                                                10
and 2001, USAID/Tanzania records showed 11 known non-returnees.
Furthermore, mission files identified additional non-returnees from 1990 and
1991, which brought the Mission’s total non-returnees to 15 for the period
1990 thru 2001.3 While we do not know the total funds that were invested in
training these participants, the Mission did spend at least $1.4 million on
training some of these participants who did not return to Tanzania.

Finally, there were also non-returnees not identified in EGAT records from
USAID missions other than the seven examined in this audit. For example, an
earlier OIG report on the “Audit of USAID/Tunisia’s Participant Training
Program,” (Report No. 7-664-93-09 dated September 21, 1993) identified up
to 315 non-returnees from Tunisia as of March 1993, who received up to
$11.2 million in training costs. These non-returnees were not reflected in
EGAT’s records.

In summary, non-returnees represent a significant lost investment to USAID.
We believe that instituting a standardized system for tracking and follow-up
on non-returnees will equip USAID to more effectively address this problem.
Accordingly, we are making the following recommendation:

        Recommendation No. 1: We recommend that the Director,
        Office of Education, Bureau for Economic Growth,
        Agriculture and Trade: a) advise USAID missions of the
        need to track non-returnees and, b) establish a mandatory
        USAID-wide system for tracking non-returnees.


USAID Should Require That
Non-Returnees Repay Training Costs

USAID requires that upon the completion of the training, the participant will
return to his/her home country and will contribute to the development of that
country. When the participant does not return to their home country, for
whatever reason, USAID’s funds have not been used for their intended
developmental purpose. In effect, those funds have been diverted for the
personal benefit of that participant. As mentioned earlier in this report, many
participants do not return to their home countries—and as much as $10
million may have been spent on non-returnees identified from EGAT’s
records alone. Of course, the amount of USAID funds spent on unidentified
non-returnees would only increase that figure. We believe that there may be
as many causes for participants not returning to their countries as there are
non-returnees—some participants may not return for economic reasons, some
3
  It is possible that the Mission actually had more non-returnees. However, this cannot be
determined due to the absence of an effective and reliable system to track and report non-
returnees.



                                                                                       11
may not return for political reasons, and some may not return for totally
different reasons or a combination of reasons, many of which may be beyond
USAID’s control. However, in our opinion, regardless of the reason, non-
returnees should be held accountable and be required to repay the cost of their
training.

In contrast, while USAID does require that participants sign “The Conditions
of Training” form, which includes statements on return to the home country
and a two-year residency requirement in the home country, USAID does not
require repayment if the participant does not return home nor does it require
that bills for collection be issued to recover costs from non-returnees.
Consequently, although some missions did issue bills for collection in an
attempt to recover lost funds, this occurred inconsistently with some missions
issuing them and most others not. For example, of the seven missions audited,
the missions in Tanzania and Egypt have issued bills of collections to recover
training costs.4 USAID/Tanzania has issued 7 bills of collection totaling
$765,363 and USAID/Egypt has issued 11, totaling $110,013. The other
audited missions have not issued bills of collection to non-returnees.

We believe that USAID should hold non-returnees accountable for their
training costs and are, therefore, making the following recommendations:

        Recommendation No. 2: We recommend that the Director,
        Office of Education, Bureau for Economic Growth,
        Agriculture and Trade, in coordination with the Office of
        General Counsel, revise USAID participant training policy
        and procedures to require the legally binding repayment of
        training costs by non-returnees.

        Recommendation No. 3: We recommend that the Director,
        Office of Education, Bureau for Economic Growth,
        Agriculture and Trade, revise USAID participant training
        policy and procedures to require that bills of collection be
        issued to non-returnees.


What additional actions should USAID missions take to meet new
requirements for selecting, monitoring, and reporting on participants
training in the United States?

In December 2002, the Department of State and the Immigration and
Naturalization Service (now Bureau of Citizenship and Immigration Services)
issued new regulations regarding J-1 visas. These regulations required
4
 Some of these bills of collection resulted from investigations conducted by the USAID OIG
Office of Investigations.



                                                                                        12
USAID and all other J-1 visa sponsors to electronically input visa application
data into the Student and Exchange Visitor Information System by January 30,
2003 (later extended to February 15, 2003). This system then processes the
data and allows sponsors to print a U.S. Government approval document for J-
1 visa applications. The regulations also require that sponsors update data
regarding the participant’s status and location on a “real-time” basis through
the training period.

To implement these changes, USAID/Washington issued “The Complete
Guide to USAID Visa Compliance” for use by all USAID missions. This
guidance changes USAID’s decentralized process of implementing the
administration of participant training activities to one of more centralized
control. Under the new process each implementing organization enters the J-1
visa information into the Training Results and Information Network (TraiNet)
database; this data is then transferred to the Visa Compliance System, a secure
data system. The application data must be approved by a designated direct-
hire employee at the local USAID Mission and, if approved, be forwarded to
USAID/Washington for submission to the Student and Exchange Visitor
Information System. We found that USAID missions had implemented these
new requirements. However, we also found that USAID could strengthen the
security aspects of its participant training program by performing background
checks on participants.


Participants Selected for Training in the
U.S. Should Undergo Background Checks

The recent attacks on the U.S. have raised concerns over the security of the
country. In response, the U.S. Government (USG) had taken steps—such as
establishing the Department of Homeland Security, enhancing control of
borders, and revising the J-1 visa application process—to increase security.
For its part, USAID, through its implementation of the revised visa process,
has increased the security of its participant training program. However, the
security of that program could be further strengthened by performing
background checks5 of participants before sending them to the U.S. for
training. Such background checks are especially important for prospective
USAID participants because U.S. consular officers, who approve visas,
generally consider USG-sponsored applicants a low-risk based on the
assumption that the USG sponsor agency is familiar with the applicants.



5
  Background checks may consist of a criminal background review, interviews, etc., to
generally assess whether an individual would be an obvious security risk to American
interests.




                                                                                  13
                Unfortunately, such background checks are not performed consistently by all
                missions. For example, of the seven missions audited, background checks
                were performed on long-term participants at one mission and were planned to
                commence at one of the other missions. In contrast, the other USAID
                missions relied on implementing organizations (NGOS, contractors, etc.) to
                select participants and to be familiar with those participants. These
                inconsistencies occurred because ADS 253 does not require that background
                checks be performed on participants. We believe that such background
                checks serve to identify individuals who are obvious risks to American
                interests and that—without such checks—USAID is at greater risk of
                sponsoring a participant that poses a significant risk to our country.
                Accordingly, we are making the following recommendation:

                       Recommendation No. 4: We recommend that the Director,
                       Office of Education, Bureau for Economic Growth,
                       Agriculture and Trade, revise ADS 253 to include a
                       requirement for background checks on persons selected for
                       participant training in the U.S.




Evaluation of   In their response to our draft report, the Office of Education, Bureau for
Management      Economic Growth, Agriculture, and Trade (EGAT/ED) concurred with our
Comments        recommendations and described actions planned to address our concerns. In
                addition, EGAT/ED submitted with their response evidence that action has been
                taken on each of our four recommendations. These actions will significantly
                strengthen USAID’s accountability and control over the status of participants
                while training in the United States. Also, for the first time, participants are now
                being held financially accountable for not adhering to the requirement to return
                to their home countries for two years after USAID-sponsored training.

                Recommendation No. 1 recommends that EGAT/ED advise sponsoring units of
                the need to track non-returnees and establish a mandatory USAID-wide system
                for tracking those non-returnees. EGAT/ED issued a major revision of Chapter
                253 of the ADS on Training for Development. This revision requires that
                Sponsoring Units (or their implementers) identify non-returnees and notify
                EGAT/ED of such non-returnees. It also requires that Sponsoring Units (or their
                implementers) notify the EGAT/ED Responsible Officer if a non-returnee is
                found to have returned to the home country at any time after being reported as a



                                                                                                14
non-returnee. However, while Management’s response indicated that the
EGAT/ED Responsible Officer is required to reflect the non-returnee in SEVIS,
we did not find this requirement reflected in ADS 253. We believe that entry of
non-returnee information into SEVIS is an important element of tracking non-
returnees and believe that such a requirement should be formalized.
Accordingly, since Management’s actions and comments clearly reflect their
agreement with Recommendation No. 1, we consider that a management
decision has been reached. However, final action on this recommendation is
pending the formalization of the requirement to enter non-returnee data into
SEVIS.

Recommendation No. 2 recommends that EGAT/ED revise its participant
training policy and procedures to require the legally binding repayment of
training costs by non-returnees. EGAT/ED modified the Conditions of Training
form signed by each participant to require repayment of training related costs if
that participant does not return to the home country. We believe that appropriate
action has been taken and consider this recommendation closed upon issuance of
this report.

Recommendation No. 3 recommends that EGAT/ED revise USAID participant
training policy and procedures to require that bills of collection be issued to non-
returnees. EGAT/ED’s revised ADS 253 requires that sponsoring units send a
Demand for Training Costs Repayment Letter to non-returnees. We believe that
appropriate action has been taken and consider this recommendation closed upon
issuance of this report.

Recommendation No. 4 recommends that EGAT/ED revise ADS 253 to include
background checks of persons selected for participant training in the U.S. The
revised ADS 253 includes a section entitled “Participant and Dependent Security
Risk Inquiry”, which requires that a risk assessment be performed to identify any
potential security threats that potential participants or their accompanying
dependents may pose to the United States. Depending on the unique security
concerns at the sponsoring mission, such risk assessments may include various
elements such as background checks, police reports, inquiries with the cognizant
Regional Security Officer, etc. We believe that appropriate action has been
taken and consider this recommendation closed upon issuance of this report.




                                                                                 15
(This page intentionally left blank.)




                                        16
                                                                                     Appendix I

Scope and     Scope
Methodology
              The Office of Inspector General/Performance Audit Division conducted these
              audits in accordance with generally accepted auditing standards. These audits
              were designed to answer the following questions: (1) Have USAID missions
              complied with selected requirements for administering participant training
              conducted in the United States? (2) What have been the non-returnee rates for
              overseas participants who were trained in the United States and did USAID
              missions take appropriate actions when participants failed to return to their
              home countries? (3) What additional actions should USAID missions take to
              meet new requirements for selecting, monitoring, and reporting on
              participants training in the United States?

              This report summarizes the results of audit work conducted at selected
              overseas USAID missions. It also addresses Agency-wide issues identified
              during the course of these audits. In carrying out these audits, fieldwork was
              performed respectively at the USAID mission offices in Managua, Nicaragua;
              Sofia, Bulgaria; Cairo, Egypt; Lagos, Nigeria; Ulaanbaatar, Mongolia; Dar es
              Salaam, Tanzania; and Santo Domingo, Dominican Republic and field offices
              of implementing organizations during spring and summer 2003. In addition,
              the pilot audit was performed in Managua, Nicaragua in November and
              December 2002.

              This audit report considered USAID policies and procedures expressed in the
              Automated Directive System, Chapter 253 and other publications to be a
              significant internal control source for all missions. Other internal controls
              assessed included, but were not limited to, the use of J-1 visas, the maintenance
              of participant training records, and the reporting of non-returnees to the
              appropriate U.S. government agencies. The office responsible for ADS 253,
              namely the Bureau for Economic Growth, Agriculture and Trade’s Office of
              Education (EGAT/ED), was not assessed during the audit, although it did
              provide comments and some explanatory documents to assist our understanding
              of current management controls.

              During the audit, we found that the information contained in TraiNet,
              USAID’s participant training database was incomplete. This limited our
              ability to fully address some of the audit objectives.




                                                                                            17
Methodology

In performing the audit, we assessed information drawn from the seven
mission-level audits as well as had data obtained during the survey of
USAID’s participant training program, which was done as part of the pilot
audit of USAID/Nicaragua. We held discussions in USAID/Washington with
the Participant Training Division in USAID’s Bureau for Economic Growth,
Agriculture & Trade, Office of General Counsel, USAID contractors, and
several implementing organizations. In addition, we also reviewed the
Internet sites of those organizations as well as related documentation.

From this assessment, we considered those issues that might impact on
governing policies and procedures. We obtained an understanding of the
participant training program as it related to potential issues on the U.S.
Immigration and Naturalization Service’s Student and Exchange Visitor
Information System and J visa regulations, and the Department of State’s
Exchange Visitor Program and its regulations. We reviewed a related law on
international training and scholarship program for developing countries and
considered prior audit reports and audit reports by other federal agencies.

During the audit, we assessed the completeness of data in the original
database. Since we were not able to perform a complete count of participants,
we did not have a verified baseline from which to establish materiality
thresholds, a statistical sample was not used for transaction testing purposes.
Accordingly, we relied on documented exceptions.




                                                                            18
              This page intentionally left blank.                               Appendix II


Management
Comments

                                                                         August 2, 2004



             TO:            IG/A/PA, Nathan S. Lokos

             THRU:          EGAT/ED/OD, John A. Grayzel

             FROM:          EGAT/ED/PT, Diane M. Leach

             SUBJECT:       Capping Report for Worldwide Audit of USAID’s Participant
                            Training Activities


             The Office of Education, Bureau for Economic Growth, Agriculture, and
             Trade (EGAT/ED) appreciates the opportunity to comment on the
             recommendations contained in the Capping Report for the Worldwide Audit
             of USAID’s Participant Training Activities. Our comments are organized
             according to the four recommendations contained in the report and provide
             information on already completed actions that, we believe, will serve to close
             the recommendations.

             Recommendation 1: We recommend that the Director, Office of
             Education, Bureau for Economic Growth, Agriculture and Trade: 1)
             remind sponsoring units of the need to track non-returnees and 2)
             establish a mandatory USAID-wide system for tracking non-returnees.

             On June 15, 2004, EGAT/ED issued a major revision of Chapter 253 of the
             Automated Directives System (ADS253), Training for Development. The
             revised ADS253 contains policies and procedures to implement a new system
             to track and report on USAID participants (and their dependents if applicable)
             and to assure that USAID is in compliance with new Homeland Security
             requirements.

             Under the new system, all USAID Sponsoring Units and their implementers
             must use the Training Results and Information Network (TraiNet) to
             document and track all USAID participants and their accompanying
             dependents (ADS253.3.1.5) A new Visa Compliance System (VCS) acts as



                                                                                          19
an interface between the TraiNet and the Student and Exchange Visitor
Information System (SEVIS, developed by the Department of Homeland
Security, U.S. Citizenship and Immigration Services (USCIS), and the
Department of State (DOS) to manage the issuance of J visa, track students
and exchange visitors, and monitor information regarding these individuals
entering the U.S. for training.

The new system also requires that Sponsoring Units (or implementers)
provide the EGAT/ED Responsible Officer with confirmation within three
business days of the start of a training activity that each participant has begun
his or her activity. Any changes in the participant’s personal or program
information must also be updated in the TraiNet in real time; that is, the same
day the information becomes effective (ADS253.3.1.12). The program
information in the system also includes fields for the training start and end
dates and fields for information on program completion or program
termination.

The ADS253 section on Non-Returnees (ADS253.3.7) also contains revised
polices and procedures with respect to non-returnees. The revised section
requires Sponsoring Units (or their implementers) to track the departure status
of their participants and to inform the EGAT/ED Responsible Officer in
writing within 30 days if a participant becomes a non-returnee. The
Responsible Officer then changes the participant’s program end date in SEVIS
to show that the participant’s program has terminated and provides relevant
remarks concerning the non-returnee in the corresponding data entry field.
Sponsoring Units (or their implementers) are also required to notify the
EGAT/ED Responsible Officer if a non-returnee is found to have returned to
the home country at any time after being reported as a non-returnee. Finally,
new procedures have been included in this section that require Sponsoring
Units to take action to recover training costs if a participant becomes a non-
returnee.

With these new policies, procedures, and systems in place, EGAT/ED
believes that the issuance of the revised ADS253 serves as a reminder to
Sponsoring Units and their implementers of the requirement to track non-
returnees and that the new TraiNet/SEVIS system does, in fact, constitute a
mandatory USAID-wide system to identify and track non-returnees.
Therefore, EGAT/ED believes that sufficient action has been taken to address
this recommendation and requests that the recommendation be closed upon
issuance of the final audit report.

Recommendation No. 2: We recommend that the Director, Office of
Education, Bureau for Economic Growth, Agriculture and Trade, in
coordination with the Office of General Counsel, revise USAID




                                                                               20
participant training policy and procedures to require the legally binding
repayment of training costs by non-returnees.

While it is the Office of the General Counsel’s (GC’s) legal opinion that such
repayment is not legally required and is a matter of policy, EGAT/ED, in
coordination with GC, has revised the ADS253 and the Conditions of Training
for J-1 Visa Holders, Form AID1381-6 (06/04) to require Sponsoring Units to
initiate action to recover training costs if a participant becomes a non-returnee.
The revised Conditions of Training form (copy attached) sets out a number of
requirements that a participant must read and acknowledge agreement to in
writing. The form must also be co-signed by a USAID official and kept in the
Sponsoring Unit’s files. The revised Conditions of Training form (included
with the June 15, 2004 issuance of ADS253) has added new language to the
section on the Two-Year Home Residency Requirement Conditions of
Training form which states “I understand that I must repay all training costs
plus possible penalty charges, administrative costs and interest in case of late
payment if I fail to return home at the end of my program, and that repayment
of these costs does not in any way eliminate or waive the two-year home
residency requirement. USAID will bill me for these costs at the last known
address on record they have for me. I hereby waive any rights to protest
against service of process of any legal documents if I do not keep USAID
informed of my current address.”

The revised ADS253 section on non-returnees noted above also institutes a
new procedure that requires Sponsoring Units to send a participant an AID
Form 253-1, Demand for Training Costs Repayment Letter (“Demand Letter”)
to the non-returnee within 10 business days of the determination that the
participant is a non-returnee. The Demand Letter is a legally binding
document containing all information necessary for due process requirements
in order to constitute a formal bill of collection as required in the Fair Debt
Collection Practices Act, as amended, of 1996. The Sponsoring Unit must
also send a copy of the Demand Letter (copy attached) to the relevant
accounting office (overseas, the Mission Controller, or in Washington, the
Accounting Branch of the Office of Financial Management) to establish the
Accounts Receivable in accordance with ADS625.3.6.1. Once the accounting
office has recorded the Accounts Receivable, it returns a copy of the Demand
Letter to the Sponsoring Unit, with a completed Accounts Receivable
reference, as an acknowledgement of recording the Accounts Receivable. The
Sponsoring Unit can then use the Accounts Receivable reference for follow-
up and determination of the current status of the Receivable. If the Receivable
becomes delinquent, then the relevant accounting office will process it under
normal debt collection procedures in accordance with ADS625.

EGAT/ED believes that the new ADS253 policy and procedures constitute a
legally binding requirement for repayment of training costs by non-returnees.



                                                                               21
We, therefore, request that this recommendation be closed upon issuance of
the final audit report.

Recommendation No. 3: We recommend that the Director, Office of
Education, Bureau for Economic Growth, Agriculture and Trade, revise
USAID participant training policy and procedures to require that bills of
collection be issued to non-returnees.

The revised policy and procedures contained in ADS253.3.7 described above
requires that bills of collection be issued to non-returnees. In this case, the
AID Form 253-1, Demand for Training Costs Repayment Letter, (the
“Demand Letter”) is a legally binding document containing all information
necessary for due process requirements in order to constitute a formal bill of
collection as required in the Fair Debt Collection Practices Act, as amended,
of 1996, and is used in lieu of a bill of collection. According to the Office of
Financial Management and GC, the Demand Letter has the same effect and
force as the bill of collection. Therefore, given the issuance of the revised
ADS253, the requirement to issue bills of collection to non-returnees is now
in effect. Therefore, EGAT/ED requests that this recommendation be closed
upon issuance of the final audit report.

Recommendation No. 4: We recommend that the Director, Office of
Education, Bureau for Economic Growth, Agriculture and Trade, revise
ADS 253 to include background checks of persons selected for participant
training in the U.S.

The revised ADS253 issued June 15, 2004, contains a new section entitled
Participant and Dependent Security Risk Inquiry (ADS253.3.1.2). This
revision requires Sponsoring Units to establish a process for conducting a
security risk inquiry to help identify any potential security threats that
potential participants or their accompanying dependents may pose to the
United States. The process for conducting the security risk inquiry must be
documented in a Mission Order for Participant Training or a Directive for
Participant Training. The security risk inquiry process must address how the
security risk inquiry will be conducted, who will conduct the inquiry, and the
point at which the inquiry will occur in the participant selection and pre-
departure process.

Since security concerns vary among different Missions worldwide, no single
appropriate formula or prescribed process is mandated to cover all situations.
However, the revised ADS253 provides guidance on possible procedures a
Mission may consider, including formal background checks, police reports,
letters of recommendation, previous personal knowledge of the participant’s
conduct, information based on interviews, and any other evidence determined
to be appropriate such as working with and making inquiries to Regional



                                                                              22
Security Officers (RSOs), Homeland Security Officials, consular officers, etc.
Sponsoring Units must keep the documentation on each security risk inquiry
in its files and must include a checklist or form to ensure that the Sponsoring
Unit has a consistent approach and procedure.

The revised policy and procedures for security risk inquiries take into account
the fact that Sponsoring Units do not have security specialists and cannot
make determinations as to whether a participant candidate or one of his or her
dependents could represent a security threat. Nevertheless, through
establishing the security risk inquiry process, Missions and
USAID/Washington Bureaus will be in a position to discover information that
will help to determine whether it is appropriate to send a potential participant
or dependent to the U.S. for participant training. Therefore, EGAT/ED
believes that the new policy and procedures for security risk inquiries
contained in the revised ADS253 constitute an adequate process for
background checking and requests that this recommendation be closed upon
issuance of the final audit report.


Attachments: A/S




Clearances:

GC: Karen d’Aboville: (Cleared in Draft)       Date: 8/2/04



                                                                    Appendix II




                                                                              23
